APPENDIX

TABLE OF APPENDICES
Appendix A
Order, Supreme Court of California, Su v.
Temple, No. S255293 (June 19, 2019) ........ App-1
Appendix B
Order, Court of Appeal for the State of
California, Second Appellate District,
Su v. Temple, No. B275426 (Apr. 2, 2019) .. App-2
Appendix C
Opinion, Court of Appeal for the State of
California, Second Appellate District, Su
v. Temple, No. B275426 (Mar. 8, 2019) ...... App-3
Appendix D
Tentative Ruling on Motion for Summary
Judgment, Superior Court of California,
County of Los Angeles, Su v. Temple,
No. BC520278 (Jan. 12, 2016)................... App-31
Appendix E
Ruling on Motion for Summary
Judgment, Superior Court of California,
County of Los Angeles, Su v. Temple,
No. BC520278 (Mar. 30, 2016) .................. App-38

App-1
Appendix A
SUPREME COURT OF CALIFORNIA
________________
No. S255293
________________
JULIE SU, as Labor Commissioner, etc.
v.

Plaintiff-Appellant,

STEPHEN S. WISE TEMPLE,
Defendant-Respondent.
________________
Filed: June 19, 2019
________________
En Banc
________________
ORDER
________________
The petition for review is denied.
Groban, J. was recused and did not participate.
CANTIL-SAKAUYE
Chief Justice

App-2
Appendix B
COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
________________
No. B275426
________________
JULIE SU, as Labor Commissioner, etc.
v.

Plaintiff-Appellant,

STEPHEN S. WISE TEMPLE,
Defendant-Respondent.
________________
Filed: Apr. 2, 2019
________________
ORDER
________________
BY THE COURT: *
The petition for rehearing filed March 22, 2019 is
denied.
[handwritten: signatures]
*EDMON, P.J.

LAVIN, J.

EGERTON, J.

App-3
Appendix C
COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
________________
No. B275426
________________
JULIE SU, as Labor Commissioner, etc.
v.

Plaintiff-Appellant,

STEPHEN S. WISE TEMPLE,
Defendant-Respondent.
________________
Filed: Mar. 8, 2019
________________
OPINION
________________
INTRODUCTION
This case was brought by plaintiff and appellant
Labor Commissioner Julie Su (Commissioner) on
behalf of preschool teachers employed by defendant
and respondent Stephen S. Wise Temple (Temple).
The Commissioner alleged that the Temple violated
various provisions of the Labor Code by failing to
provide its preschool teachers with rest breaks,
uninterrupted meal breaks, and overtime pay. The
trial court granted summary judgment in favor of the
Temple, concluding the Commissioner’s claims were
barred
by
the
“ministerial
exception”—a

App-4
constitutional doctrine that provides a complete
defense to certain employment claims brought against
religious institutions by or on behalf of persons
classified as ministerial employees.
Although the Temple’s preschool curriculum has
both secular and religious content, its teachers are not
required to have any formal Jewish education, to be
knowledgeable about Jewish belief and practice, or to
adhere to the Temple’s theology. Further, the Temple
does not refer to its teachers as “ministers” or the
equivalent, nor do the teachers refer to themselves as
such. Accordingly, we conclude the teachers are not
“ministers” for purposes of the ministerial exception.
We therefore reverse the judgment and remand for
further proceedings.
BACKGROUND
1.

Facts

The Temple is a Reform Jewish synagogue, whose
mission is to promote the Jewish faith and serve and
strengthen the Jewish community. The Temple’s
Early Childhood Center (ECC), which employs
approximately 40 teachers, is an on-site preschool for
children five years of age and under.
The ECC’s curriculum has a significant secular
component. ECC teachers spend much of the school
day engaged with children in indoor and outdoor play
at various learning centers. These learning centers
include blocks, puzzles, games, books, and science, and
promote reading readiness, writing readiness, and
math readiness. Teachers also work with children on
social skills, including sharing and kindness, and
assist with toileting, meals, and snacks.

App-5
The ECC’s curriculum also has a religious
component through which children are introduced to
Jewish life, religious ritual, and Judaic observance.
The religious curriculum includes the celebration of
Jewish holidays, weekly Shabbat observance,
recitation of the ha-motzi (grace before meals) before
meals and snacks, and an introduction to Jewish
values such as kehillah (community), hoda’ah
(gratitude) and shalom (peace and wholeness). All
ECC teachers participate in weekly Shabbat services
and teach religious concepts, music, singing, and
dance. The ECC is part of the Temple’s religious and
educational mission, and it fulfills a religious
obligation of the Temple. The ECC exists to instill and
foster a positive sense of Jewish identity and to
develop in children favorable attitudes towards the
values and practices of Judaism.
ECC teachers are not required to be adherents to
the Temple’s religious philosophy or, indeed, to be
Jewish. As a result, while some of the ECC’s teachers
are Jewish, others are non-Jewish or do not identify
with any faith tradition. For example, one former
teacher was raised as a Catholic and, prior to taking a
job at the ECC, was employed as a teacher and
librarian at a private Catholic elementary school.
Another teacher is a practicing Catholic; and yet
another taught catechism at a church. ECC teachers
are not ordained as religious leaders and do not hold
themselves out as ministers of the faith.
ECC teachers are not required to have any
theological training, to be educated about Judaism, or
to be proficient in Hebrew. As a result, some ECC
teachers are hired without any knowledge of Jewish

App-6
religion or practice. Once employed, they are not
required to undertake a course of theological study.
Instead, the ECC provides its teachers with Judaic
reading materials, including the Temple’s “holiday
packets,” which include explanations of each of the
Jewish holidays and the symbols, Hebrew vocabulary,
foods, and songs associated with those holidays. In
addition, teachers receive guidance on religious
observance from the ECC’s rabbis and administrators
trained in Jewish education.
2.

The Present Action

The Commissioner filed the present action in
September 2013. The operative complaint alleges that
the Temple classifies its non-credentialed teachers as
“non-exempt,” but it does not provide them with 10minute rest breaks, uninterrupted 30-minute meal
breaks, or overtime pay, as required by California’s
wage-and-hour laws (Lab. Code, §§ 226.7, 510, and
512; Cal. Code Regs., tit. 8, § 11040, subds. 3, 11, 12).
The complaint therefore alleges statutory wage-andhour violations, and it seeks meal and rest period
premiums, overtime pay, statutory and civil penalties,
and an injunction.
3.

The
Temple’s
Judgment

Motion

for

Summary

The Temple filed a motion for summary judgment.
It asserted that the ECC was a religious school and its
preschool teachers were “ministerial employees,” as
defined by the United States Supreme Court in
Hosanna-Tabor Evangelical v. E.E.O.C. (2012) 565
U.S. 171 (Hosanna-Tabor). The Temple therefore
urged that the Commissioner’s claims were barred by
the “ministerial exception,” which precludes

App-7
government intrusion into certain aspects of the
employment relationship between a religious
institution and its “ministers.”
The Commissioner opposed the Temple’s motion
for summary judgment. Although the Commissioner
did not dispute most of the Temple’s facts, she
asserted the Temple’s preschool program is primarily
secular; ECC teachers are not required to study or to
adhere to the Temple’s theology to be hired or
maintain employment; ECC teachers are not ordained
or otherwise recognized as spiritual or religious
leaders; ECC teachers do not hold themselves out as
ministers; the ECC is open to children of parents who
are not adherents of the Temple’s theology; and the
Temple’s rabbis, not its teachers, are primarily
responsible for the children’s religious instruction and
spiritual leadership. The Commissioner also asserted
the First Amendment does not preclude enforcement
of facially neutral labor regulations, and the Temple
had not demonstrated that the regulations at issue
were substantively at odds with the Temple’s religious
beliefs or required conduct contrary to those beliefs.
Thus, the Commissioner argued, there was no
evidence that the wage-and-hour laws at issue
burdened the Temple’s religious beliefs in a manner
that violated the First Amendment.
The court granted the motion for summary
judgment. It concluded the Temple’s preschool
teachers were “ministers” within the meaning of the
ministerial exception, explaining that the exception is
not limited to the heads of religious congregations, and
prior decisions had recognized that preschool teachers
in religious schools could serve ministerial functions.

App-8
In the present case, it was undisputed “that the ECC
fulfills a religious obligation of the Temple; ECC
teachers further the Temple’s mission and implement
Judaic curriculum; ECC teachers teach children about
Jewish religious holidays; ECC teachers participate in
weekly Shabbat services; ECC teachers teach
student[s] to say the Jewish grace blessing before each
meal and snack; ECC teachers instruct children in
saying the Shema prayer and Oseh Shalom, a prayer
for peace; teaching children about religious practices,
holidays, and rituals fulfills religious commandments;
ECC teachers help transmit Judaism to future
generations; Judaism does not preclude a non-Jew
from teaching the Jewish religion; early Jewish
childhood education impacts not only the child, but the
Jewish identity of the child’s parents and family; upon
a child’s completion of the ECC program, the majority
of families continue their children’s Jewish education
at the Temple’s schools; and teaching music, singing,
and dance to students fulfills a religious obligation
and Biblical directive.” Under these facts, the court
said, “a reasonable trier of fact could not conclude that
ECC teachers do not serve a ministerial function.”
The court entered judgment on August 16, 2016.
The Commissioner timely appealed.
STANDARD OF REVIEW
A defendant moving for summary judgment must
show “that one or more elements of the cause of
action … cannot be established, or that there is a
complete defense to the cause of action.” (Code Civ.
Proc., § 437c, subd. (p)(2).) Summary judgment is
appropriate where “all the papers submitted show
that there is no triable issue as to any material fact

App-9
and that the moving party is entitled to a judgment as
a matter of law.” (Id., subd. (c).) We review a trial
court’s grant of summary judgment de novo,
“considering all the evidence set forth in the moving
and opposition papers except that to which objections
have been made and sustained.” (Guz v. Bechtel
National, Inc. (2000) 24 Cal.4th 317, 334.)
DISCUSSION
1.

The “Ministerial Exception”

The First Amendment provides, in part, that
“Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.” (U.S. Const., 1st Amend.)
A “ministerial exception” to Title VII of the Civil
Rights Act of 1964 (42 U.S.C., § 2000e et seq.) (Title
VII), grounded in the Religion Clauses of the First
Amendment, was first articulated by the Fifth Circuit
in McClure v. Salvation Army (5th Cir. 1972) 460 F.2d
553, and subsequently was recognized by every federal
circuit. 1 As articulated by the federal courts, the
See, e.g., Natal v. Christian and Missionary Alliance (1st Cir.
1989) 878 F.2d 1575, 1578; Rweyemamu v. Cote (2d Cir. 2008) 520
F.3d 198, 204-209; Petruska v. Gannon University (3d Cir. 2006)
462 F.3d 294, 303-307; E.E.O.C. v. Roman Catholic Diocese of
Raleigh, NC (4th Cir. 2000) 213 F.3d 795, 800-801; Combs v. Cen
Tx Ann Conf United Methodist Church (5th Cir. 1999) 173 F.3d
343, 345-350; Hollins v. Methodist Healthcare, Inc. (6th Cir.
2007) 474 F.3d 223, 225-227); Schleicher v. Salvation Army (7th
Cir. 2008) 518 F.3d 472, 475; Scharon v. St. Luke’s Episcopal
Presbyterian Hosp. (8th Cir. 1991) 929 F.2d 360, 362-363; Werft
v. Desert Southwest Annual Conference (9th Cir. 2004) 377 F.3d
1099, 1100-1104; Bryce v. Episcopal Church in Diocese of
Colorado (10th Cir. 2002) 289 F.3d 648, 655-657; Gellington v.
Christian Methodist Episcopal Church (11th Cir. 2000) 203 F.3d
1

App-10
ministerial exception “operates to exempt from the
coverage of various employment laws the employment
relationships between religious institutions and their
‘ministers.’” (E.E.O.C. v. Roman Catholic Diocese of
Raleigh, NC, supra, 213 F.3d at p. s 800.) As such, it
operates as a “constitutionally compelled limitation on
civil authority” that ensures “that no branch of secular
government trespasses on the most spiritually
intimate grounds of a religious community’s
existence.” (Ibid.)
The Supreme Court has addressed the ministerial
exception just once, in Hosanna-Tabor, supra, 565
U.S. at p. 171. At issue in that case was a church
school’s termination of a teacher, Cheryl Perich, who
had been diagnosed with narcolepsy. (Id. at p. 178.)
Perich was a “called” teacher, who was “regarded as
having been called to [her] vocation by God through
[her] congregation.” (Id. at p. 177.) To be eligible to
receive a call from the congregation, Perich was
required to have completed eight courses of theological
study, to have obtained the endorsement of the local
Synod district, and to pass an oral examination by a
faculty committee. Once called, Perich received the
formal title “‘Minister of Religion, Commissioned,’”
and could be removed only for cause and by a
supermajority of her congregation. (Id. at p. 177.)
The school claimed it fired Perich because she
threatened to file suit, which violated the Church’s
belief that Christians should resolve their disputes
internally. (Hosanna-Tabor, supra, 565 U.S. at p.
1299, 1301-1304; E.E.O.C. v. Catholic University of America
(D.C. Cir. 1996) 83 F.3d 455, 460-463.

App-11
180.) Perich filed a charge with the Equal
Employment Opportunity Commission (EEOC), which
sued the church for violating federal and state antidiscrimination laws. (Id. at p. 179.) Invoking the
“ministerial exception,” the church argued the suit
was barred by the First Amendment because the
EEOC’s
claims
concerned
the
employment
relationship between a religious institution and one of
its ministers. (Id. at pp. 180-181.) The district court
agreed and granted summary judgment for the
church; the Sixth Circuit reversed. (Id. at pp. 180181.)
The Supreme Court reversed the Sixth Circuit
and reinstated the grant of summary judgment for the
church. Significantly, it agreed with the lower federal
courts “that there is … a ministerial exception,” which
is grounded in both the Free Exercise Clause and
Establishment Clause of the First Amendment.
(Hosanna-Tabor, supra, 565 U.S. at p. 188.) The court
explained: “The members of a religious group put their
faith in the hands of their ministers. Requiring a
church to accept or retain an unwanted minister, or
punishing a church for failing to do so, intrudes upon
more than a mere employment decision. Such action
interferes with the internal governance of the church,
depriving the church of control over the selection of
those who will personify its beliefs. By imposing an
unwanted minister, the state infringes the Free
Exercise Clause, which protects a religious group’s
right to shape its own faith and mission through its
appointments. According the state the power to
determine which individuals will minister to the
faithful also violates the Establishment Clause, which
prohibits
government
involvement
in
such

App-12
ecclesiastical decisions.” (Id. at pp. 188-189.) A
ministerial exception avoided these constitutional
violations, the court said, by “ensur[ing] that the
authority to select and control who will minister to the
faithful—a matter ‘strictly ecclesiastical,’ [citation]—
is the church’s alone.” (Id. at pp. 194-195.)
Having recognized the existence of a ministerial
exception, the court held that the exception applied in
the case before it. Although the court declined “to
adopt a rigid formula for deciding when an employee
qualifies as a minister,” it identified the following facts
as relevant to its decision. (Hosanna-Tabor, supra, 565
U.S. at p. 190.)
First, the Church “held Perich out as a minister,”
with a role distinct from that of most of its members.
The court explained: “When [the Church] extended
[Perich] a call, it issued her a ‘diploma of vocation’
according her the title ‘Minister of Religion,
Commissioned.’ She was tasked with performing that
office ‘according to the Word of God and the
confessional standards of the Evangelical Lutheran
Church as drawn from the Sacred Scriptures.’ The
congregation prayed that God ‘bless [her]
ministrations to the glory of His holy name, [and] the
building of His church.’ In a supplement to the
diploma, the congregation undertook to periodically
review [the teacher’s] ‘skills of ministry’ and
‘ministerial responsibilities,’ and to provide for her
‘continuing education as a professional person in the
ministry of the Gospel.’” (Hosanna-Tabor, supra, 565
U.S. at p. 191, internal record citations omitted.)
Second, Perich had the title of minister, which
reflected significant religious training followed by a

App-13
formal process of commissioning. Over the course of
six years, she had completed eight college-level
courses in religious subjects and passed an oral
examination by a faculty committee at a Lutheran
college. She also had to obtain the endorsement of her
local Synod district by submitting a petition that
contained her academic transcript, letters of
recommendation, personal statement, and written
answers to various ministry-related questions.
Ultimately, she was commissioned as a minister only
upon election by the congregation, which recognized
God’s call to her to teach. (Hosanna-Tabor, supra, 565
U.S. at p. 191.)
Third, Perich held herself out as a minister by
accepting “the formal call to religious service” and
claiming a special housing allowance on her taxes
available only to employees earning their
compensation in the exercise of the ministry.
(Hosanna-Tabor, supra, 565 U.S. at pp. 191-192.)
Fourth, Perich’s job duties “reflected a role in
conveying the Church’s message and carrying out its
mission.” (Hosanna-Tabor, supra, 565 U.S. at p. 192.)
Perich taught her students religion three times per
week and led her students in prayer three times a day.
Once a week, she took her students to a school-wide
chapel service, and about twice a year she led the
chapel service by choosing the liturgy, selecting the
hymns, and delivering a short message based on Bible
verses. Thus, she “performed an important role in
transmitting the Lutheran faith to the next
generation.” (Ibid.)
The court concluded: “In light of these
considerations—the formal title given Perich by the

App-14
Church, the substance reflected in that title, her own
use of that title, and the important religious functions
she performed for the Church—we conclude that
Perich was a minister covered by the ministerial
exception.” (Hosanna-Tabor, 565 U.S. at p. 192.) The
court expressed no view whether someone with
Perich’s duties—including lay teachers who performed
the same tasks but were not “called” or identified as
ministers—“would be covered by the ministerial
exception in the absence of the other considerations.”
(Id. at p. 193.)
2.

The ECC’s Teachers are not “Ministers”

The Temple contends that as a matter of law, the
ECC’s teachers are “ministers” as defined by
Hosanna-Tabor. We disagree.
First, nothing in the record suggests the Temple
held out its ECC teachers as ministers. Unlike Perich,
the teacher in Hosanna-Tabor, ECC teachers are not
given religious titles, and they are not ordained or
otherwise recognized as spiritual leaders. To the
contrary, it is undisputed that teachers are not
required to adhere to the Temple’s religious
philosophy, to be Temple members, or, indeed, even to
be Jewish. As a result, while some ECC teachers are
practicing Jews, others are non-Jewish or do not
identify with any faith tradition.
Second, in contrast to Perich, who was required to
take eight college-level courses on a variety of faithbased subjects and pass an oral examination
administered by a faculty committee at a Lutheran
college, the Temple does not require its teachers to
have any formal Jewish education or training. Thus,
some ECC teachers are hired without any knowledge

App-15
of Jewish religion or practice. Further, although
teachers are provided with Judaic reading materials
and a “holiday packet” to use for classroom activities,
no course work in Judaism is required once teachers
are hired.
Third, again in contrast to Perich, there is no
evidence that any of the ECC’s teachers held
themselves out as ministers. Instead, they describe
themselves as “teachers” and have not claimed any tax
benefits available only to ministers.
Only with respect to the fourth consideration in
Hosanna-Tabor do ECC teachers and Perich have
anything in common: They both taught religion in the
classroom. As we have described, ECC teachers are
responsible for implementing the school’s Judaic
curriculum by teaching Jewish rituals, values, and
holidays, leading children in prayers, celebrating
Jewish holidays, and participating in weekly Shabbat
services. As such, they have a role in transmitting
Jewish religion and practice to the next generation.
Considering all the relevant circumstances of the
teachers’ employment, we conclude the ministerial
exception does not foreclose the Commissioner’s
claims. Although the ECC’s teachers are responsible
for some religious instruction, we do not read
Hosanna-Tabor to suggest that the ministerial
exception applies based on this factor alone. To the
contrary, it was central to Hosanna-Tabor’s analysis
that a minister is not merely a teacher of religious
doctrine—significantly, he or she “personif[ies]” a
church’s (or synagogue’s) beliefs and “minister[s] to
the faithful.” (Hosanna-Tabor, supra, 565 U.S. at
pp. 188-189, 196.) The record in the present case is

App-16
clear that the Temple’s teachers did not play such a
role in synagogue life. Indeed, as we have said, many
of the Temple’s teachers are not members of the
Temple’s religious community or adherents to its
faith. Thus, while the teachers may play an important
role in the life of the Temple, they are not its
ministers.
Our conclusion is consistent with the Ninth
Circuit’s recent decision in Biel v. St. James School
(9th Cir. 2018) 911 F.3d 603 (Biel). Like the ECC
teachers in the present case, the plaintiff in Biel was
a teacher in a religious school. After the school
terminated her employment, Biel sued, claiming the
termination violated the Americans With Disabilities
Act. The Ninth Circuit reversed the district court’s
determination that Biel’s suit was barred by the
ministerial exception. (Id. at p. 605.) The court noted
that Biel was not religiously educated or trained; she
was held out by the church as a “teacher,” not a
“minister;” she was employed at-will; and she did not
claim benefits available only to ministers. (Id. at pp.
608-609.) Although Biel taught lessons on Catholic
faith four days a week and incorporated religious
themes into her classroom environment and
curriculum, the court concluded based on “the totality
of Biel’s role” that the ministerial exception did not
foreclose her claim. (Id. at p. 605.)
Similarly, in Herx v. Diocese of Ft. Wayne-South
Bend Inc. (N.D. Ind. 2014) 48 F.Supp.3d 1168, 11761177 (Herx), the court held that employment
discrimination claims brought by a teacher against a
Catholic school were not barred by the ministerial
exception. The court explained: “[Plaintiff] has never

App-17
led planning for a Mass, hasn’t been ordained by the
Catholic Church, hasn’t held a title with the Catholic
Church, has never had (and wasn’t required to have)
any religious instruction or training to be a teacher at
the school, has never held herself out as a priest or
minister, and was considered by the principal to be a
‘lay teacher.’ … Labeling [plaintiff] a ‘minister’ based
on her attendance and participation in prayer and
religious services with her students, which was done
in a supervisory capacity, would greatly expand the
scope of the ministerial exception and ultimately
would qualify all of the Diocese’s teachers as
ministers, a position rejected by the Hosanna-Tabor
Court.” (Id. at p. 1177; see also in Bohnert v. Roman
Catholic Archbishop of San Fran. (N.D. Cal. 2015) 136
F.Supp.3d 1094, 1113-1115, [sexual harassment claim
brought by a teacher at Catholic high school was not
barred by the ministerial exception because she was
not an ordained minister, was not “called,” and lacked
a theological education]; but see Grussgott v.
Milwaukee Jewish Day School (7th Cir. 2018) 882 F.3d
655, 656-662 [applying ministerial exception to Jewish
grade school teacher]; Henry v. Red Hill Evangelical
Lutheran Church of Tustin (2011) 201 Cal.App.4th
1041 [applying ministerial exception to Protestant
preschool teacher; decided prior to Hosanna-Tabor].)
The present case is analogous to Biel and Herx.
Like the teachers in those cases, the Temple’s
preschool teachers teach religion, but they need not be
religiously educated and they are not held out as
ministers. Indeed, as we have said, many of the
Temple’s teachers are not practicing Jews. We
conclude, like the Biel and Herx courts, that the
ministerial exception does not apply.

App-18
In so concluding, we do not, as the Temple
suggests, treat Hosanna-Tabor’s analysis as a “‘rigid
formula for deciding when an employee qualifies as a
minister.’” That is, we do not conclude that the ECC’s
teachers are not ministers simply because they do not
satisfy all four of the Hosanna-Tabor factors or
because the teachers’ role in their religious community
is different than Perich’s role in hers. Hosanna-Tabor
compels us to distinguish between those church or
synagogue employees who are sufficiently central to a
religious institution’s mission that they are exempt
from the protection of the state’s generally applicable
employment laws, and those who are not. And
although ECC teachers undeniably play an important
role in Temple life, the undisputed evidence does not
establish that they “minister to the faithful” or
“personify its beliefs” in the manner contemplated by
Hosanna-Tabor. (Hosanna-Tabor, supra, 565 U.S. at
pp. 188-189.) As such, the claims advanced on their
behalf by the Commissioner are not, as a matter of
law, barred by the ministerial exception.
DISPOSITION
The judgment is reversed. 2 The trial court is
directed to issue a new order denying the Temple’s
motion for summary judgment and to conduct further
proceedings consistent with this opinion. The
Temple’s motion to strike portions of the
Commissioner’s reply brief is denied. The
Commissioner is awarded her costs on appeal.

2 Given our holding, it is unnecessary to decide whether the
ministerial exception applies to California’s wage-and-hour laws.

App-19
CERTIFIED FOR PUBLICATION
LAVIN, J.

App-20
EDMON, P.J., concurring in the judgment.
I agree with the majority that the grant of
summary judgment must be reversed because the
Temple has not demonstrated that its employment
relationship with its preschool teachers is exempt
from the state’s wage-and-hour laws. However, I write
separately to address a threshold question not
considered by the majority opinion: Whether the
ministerial exception, as described in Hosanna-Tabor
Evangelical Lutheran Church and School v. EEOC
(2012) 565 U.S. 171 (Hosanna-Tabor) and grounded in
the First Amendment, applies at all in the present
case. For the reasons that follow, I would conclude
that the Temple has not demonstrated that the
ministerial exception has any application to the
present dispute, which does not touch on the Temple’s
freedom to choose its ministers or to practice its
beliefs. I therefore would hold that the ministerial
exception does not bar the present suit without regard
to whether the Temple’s preschool teachers are
“ministers.”
1.

Under Supreme Court Jurisprudence,
Religious Institutions Generally Are Not
Exempt from Neutral Laws of General
Application

The First Amendment provides, in part, that
“Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.” (U.S. Const., 1st Amend.)
The Supreme Court’s First Amendment
jurisprudence consistently has held that religious
institutions and their members are not exempt from
most neutral laws of general application. (Trinity

App-21
Lutheran Church of Columbia, Inc. v. Comer (2017)
137 S.Ct. 2012, 2020; Hosanna-Tabor, supra, 565 U.S.
at pp. 189-190.) For example, in Employment Div.,
Dept. of Human Resources of Ore. v. Smith (1990) 494
U.S. 872 (Employment Div. v. Smith), the Supreme
Court upheld the denial of state unemployment
benefits to two members of a Native American Church
who had been fired from their jobs for using peyote,
which was a crime under Oregon law. The employees
challenged the denial of benefits, contending they had
ingested peyote for sacramental purposes at a Native
American church ceremony, and therefore the state’s
action violated their right to free exercise of religion.
(Id. at pp. 874-875.) The court held that while the Free
Exercise Clause protects religious beliefs, “[w]e have
never held that an individual’s religious beliefs excuse
him from compliance with an otherwise valid law
prohibiting conduct that the State is free to regulate.”
(Id. at pp. 878-879.) To the contrary, the court said, its
decisions “consistently held that the right of free
exercise does not relieve an individual of the obligation
to comply with a ‘valid and neutral law of general
applicability on the ground that the law proscribes (or
prescribes) conduct that his religion prescribes (or
proscribes).’” (Id. at p. 879.)
The high court similarly concluded in Tony and
Susan Alamo Foundation v. Secretary of Labor (1985)
471 U.S. 290, in which it considered whether applying
the minimum wage, overtime, and recordkeeping
requirements of the Fair Labor Standards Act (FLSA)
to workers engaged in a religious foundation’s
commercial activities violated the foundation’s rights
under the First Amendment. The court concluded that
applying the FLSA did not violate the foundation’s

App-22
Free Exercise rights because “[i]t is virtually selfevident that the Free Exercise Clause does not require
an exemption from a governmental program unless, at
a minimum, inclusion in the program actually
burdens the claimant’s freedom to exercise religious
rights”—a showing the foundation had not made. (Id.
at p. 303.) The court also concluded that the FLSA did
not violate the foundation’s Establishment Clause
rights because the FLSA neither had a “‘primary
effect’ of inhibiting religious activity” nor fostered
“‘“an excessive government entanglement with
religion.”’” (Id. at p. 305.) Thus, the court said,
notwithstanding the foundation’s religious character,
“application of the Act to the Foundation’s commercial
activities is fully consistent with the requirements of
the First Amendment.” (Id. at p. 306.)
2.

The “Ministerial Exception”

The Supreme Court recognized a limited
exception to the principle that most neutral,
generally-applicable
laws
may
be
applied
constitutionally to religious institutions in HosannaTabor, supra, 565 U.S. 171. There, Cheryl Perich, an
elementary school teacher whose employment was
terminated after she was diagnosed with narcolepsy,
sued
her
church
employer
for
disability
discrimination, seeking reinstatement and damages.
The church claimed it fired Perich because she
threatened legal action against the church, which it
claimed was inconsistent with its religious beliefs. (Id.
at pp. 178-179.) The court resolved the case in favor of
the church, holding that the ministerial exception
precluded application of the Americans with

App-23
Disabilities Act, 42 U.S.C. § 12101 et seq. to Perich’s
claims. (Id. at p. 188.)
Three aspects of the court’s analysis are notable
for present purposes. First, the court characterized the
ministerial exception as compelled by the First
Amendment’s Religion Clauses. The court explained
that imposing an unwanted minister on a church
infringes both “the Free Exercise Clause, which
protects a religious group’s right to shape its own faith
and mission through its appointments,” and the
Establishment Clause, “which prohibits government
involvement in such ecclesiastical decisions.”
(Hosanna-Tabor, supra, 565 U.S. at pp. 188-189.) A
ministerial exception avoided these constitutional
violations, the court said, by “ensur[ing] that the
authority to select and control who will minister to the
faithful—a matter ‘strictly ecclesiastical,’ [citation]—
is the church’s alone.” (Id. at pp. 194-195.)
Second, the court described the ministerial
exception as protecting the freedom of religious
organizations to “accept or retain” their own
ministers. (Hosanna-Tabor, supra, 565 U.S. at p. 188.)
The court explained: “Requiring a church to accept or
retain an unwanted minister, or punishing a church
for failing to do so, intrudes upon more than a mere
employment decision. Such action interferes with the
internal governance of the church, depriving the
church of control over the selection of those who will
personify its beliefs.” (Ibid., italics added.) And, the
court said, the ministerial exception was necessary to
protect a religious group’s right to shape its faith and
mission “through its appointments.” (Ibid., italics
added.) Concluding otherwise, it explained, would be

App-24
to accept the “remarkable view” that the Religion
Clauses “have nothing to say about a religious
organization’s freedom to select its own ministers.” (Id.
at p. 189, italics added.)
Third, in concluding that the ministerial
exception barred Perich’s suit against the school, the
court “express[ed] no view” on the doctrine’s
application to other claimants and other claims. It
explained: “The case before us is an employment
discrimination suit brought on behalf of a minister,
challenging her church’s decision to fire her. Today we
hold only that the ministerial exception bars such a
suit. We express no view on whether the exception
bars other types of suits, including actions by
employees alleging breach of contract or tortious
conduct by their religious employers. There will be
time enough to address the applicability of the
exception to other circumstances if and when they
arise.” (Hosanna-Tabor, supra, 565 U.S. at p. 196,
italics added.)
In short, Hosanna-Tabor applied the ministerial
exception in a limited context: in a case implicating a
church’s retention of a minister. It expressly did not
decide whether, and how, the ministerial exception
might apply to cases presenting other issues.
3.

The Temple Has Not Demonstrated That the
Ministerial Exception Applies in the Present
Case

The present appeal raises one of the many
questions left unanswered by Hosanna-Tabor—
namely, whether the ministerial exception applies to
wage-and-hour claims such as those alleged by the

App-25
Commissioner in this case. On the record before us, I
would conclude that it does not.
The Temple relies on a number of pre-HosannaTabor cases that have interpreted the ministerial
exception broadly and have suggested that it exempts
from court scrutiny all “‘employment decisions
regarding ... ministers,’” without regard to whether
those decisions “actually burden” the free exercise of
religion or result in excessive government
entanglement with religion. (Alcazar v. Corp. of
Catholic Archbishop of Seattle (9th Cir. 2010) 598 F.3d
668, 673-674 (Alcazar), aff’d in part & vacated in part
(9th Cir. 2010) 627 F.3d 1288 [ministerial exception
barred application of Washington’s Minimum Wage
Act to Catholic seminarians suing for overtime wages];
see also Skrzypczak v. Roman Catholic Diocese of
Tulsa (10th Cir. 2010) 611 F.3d 1238 [ministerial
exception barred religious director’s post-termination
claims against church for violations of various
antidiscrimination laws, including the Equal Pay Act];
Shaliehsabou v. Hebrew Home of Washington (4th Cir.
2004) 363 F.3d 299 [ministerial exception barred
kosher supervisor’s overtime claim under FLSA];
Schleicher v. Salvation Army (7th Cir. 2008) 518 F.3d
472 [ministerial exception barred minimum wage and
overtime claims brought by Salvation Army ministers
under FLSA].) In the view of those cases, an “actual
burden” inquiry is not necessary because “government
interference with the church-minister relationship
inherently burdens religion.” (Alcazar, at p. 673.) The
Temple urges this broad view of the ministerial
exception, suggesting that requiring a religious
employer to demonstrate burden or excessive
entanglement “miss[es] the point.”

App-26
In my view, Hosanna-Tabor neither requires nor
permits such an expansive reading of the ministerial
exception. As noted above, Hosanna-Tabor arose in a
particular factual context—a church’s termination of
a minister—that most plainly calls for the application
of the ministerial exception. The opinion took pains to
emphasize that it “express[es] no view on whether the
exception bars other types of suits, including actions
by employees alleging breach of contract or tortious
conduct by their religious employers.” (HosannaTabor, supra, 565 U.S. at p. 196.) Nothing in the
opinion, therefore, requires the ministerial exception’s
application to wage-and-hour claims brought by or on
behalf of ministers; to the contrary, the opinion
expressly leaves for future determination “the
applicability of the exception to other circumstances if
and when they arise.” (Ibid.)
Moreover, the constitutional imperative against
encroaching on a church’s selection of its ministers
does not, as a logical matter, suggest that churches
must be exempted from all laws that would regulate
the employment relationship between a religious
institution and its ministers. Given the number and
variety of federal and state employment laws, it
stands to reason that some laws will impose a greater
burden on religious interests than will others.
Accordingly,
courts
can,
without
doctrinal
inconsistency, exempt churches from the application
of some employment laws without exempting churches
from all such laws.
Finally, because the ministerial exception is a
First Amendment doctrine, I believe its scope
necessarily is limited to what is necessary to comply

App-27
with the Free Exercise and Establishment Clauses. I
therefore agree with other courts that have suggested
it strays too far from the rationale of the First
Amendment to extend constitutional protection to all
employment-related actions by churches that affect
ministers. (See, e.g., Bigelow v. Sassafras Grove
Baptist Church (N.C.App. 2016) 247 N.C.App. 401,
411-412 [ministerial exception did not bar minister’s
claim against church for violating the North Carolina
Wage and Hour Act: “Here, plaintiff’s claims, rather
than asking the court to address ecclesiastical
doctrine or church law, require the court only to make
a secular decision regarding the terms of the parties’
contract and to apply the neutral principles of the
Wage and Hour Act”]; Sumner v. Simpson University
(2018) 27 Cal.App.5th 577, 580-581 [breach of contract
claim brought by terminated dean against theological
seminary held not barred by ministerial exception:
“Defendants have failed to show that resolution of
Sumner’s contract claim would excessively entangle
the court in religious matters”]; Jenkins v. Refuge
Temple Church of God in Christ, Inc. (2018) 424 S.C.
320, 329-330 [pastor’s widow’s breach of contract
claim was not barred by ministerial exception because
“the parties in this case are not asking this court to
resolve an employment discrimination suit or a
dispute over who will lead a church”]; Kirby v.
Lexington Theological Seminary (Ky. 2014) 426
S.W.3d 597, 615 [ministerial exception did not bar
tenured professor’s claims against theological
seminary for breach of contract; by allowing claims to
proceed, the government was not interfering in
seminary’s “selection of its ministers”]; Second
Episcopal Afr. Methodist Church v. Prioleau (D.C.

App-28
App. 2012) 49 A.3d 812, 817 [ministerial exception did
not bar minister’s breach of contract action against
church because it would not “require the court to
entangle itself in church doctrine”]; Bollard v.
California Province of Soc. of Jesus (9th Cir. 1999) 196
F.3d 940 (Bollard) [ministerial exception did not bar
novice priest’s sexual harassment claim against Jesuit
order].)
For all of these reasons, I would reject the
expansive application of the ministerial exception
suggested by the Temple, and instead adopt the
narrower construction articulated by the Ninth
Circuit in Bollard, supra, 196 F.3d 940. Bollard holds
that the ministerial exception insulates a religious
organization’s decisions regarding its ministers from
judicial scrutiny when the disputed practices involve
the institution’s freedom to choose its ministers or to
practice its beliefs. This limited exception is required
by the Free Exercise and Establishment Clauses of the
First Amendment, providing “important protections to
churches that seek to choose their representatives free
from government interference and according to the
dictates of faith and conscience.” (Id. at p. 945.)
However, where a religious institution “is neither
exercising its constitutionally protected prerogative to
choose its ministers nor embracing the behavior at
issue as a constitutionally protected religious
practice,” the ministerial exception does not apply. (Id.
at p. 944.)
Bollard’s analysis recognizes that simply because
the person on whose behalf a suit is brought is a
minister does not necessarily mean that the aspect of
the church-minister employment relationship that

App-29
warrants heightened constitutional protection—a
church’s freedom to choose its representatives and
practice its beliefs—is present. The constitutional
rationale for protecting some of a church’s personnel
decisions concerning its ministers is the necessity of
allowing the church to choose its representatives
using whatever criteria it deems relevant. (Bollard,
supra, 196 F.3d at p. 947.) That rationale does not
apply in the present case, where what is at issue is not
who the Temple will select to educate its youngest
students, but only whether it will provide the people it
has chosen with meal breaks, rest breaks, and
overtime pay.
For all of these reasons, I would conclude that the
Temple has not demonstrated that the ministerial
exception bars the Commissioner’s claims. This is not
a case about the Temple’s choice of representative, a
decision to which we would simply defer without
further inquiry. And, significantly, the Temple has
never offered a religious justification for its alleged
failure to abide by California’s wage-and-hour laws.
Thus, there is no danger that “by allowing this suit to
proceed, we will thrust the secular courts into the
constitutionally untenable position of passing
judgment on questions of religious faith or doctrine.”
(Bollard, supra, 196 F.3d at p. 947.) On the record
before us, I therefore would conclude that the
ministerial exception has no application to the
Commissioner’s wage and hour claims, and I would
reverse the grant of summary judgment on this basis.
To be clear, I do not believe that the views I have
just articulated mean a religious institution can never
demonstrate that its employment relationship with a

App-30
ministerial employee is exempt from the wage-andhour laws—to the contrary, I believe that in
appropriate cases, the First Amendment may well
compel an exemption from those laws to avoid
“‘trench[ing] on [a] Church’s protected ministerial
decisions.’” (Alcazar, supra, 598 F.3d at p. 674.) What
it does mean is that employers cannot avoid claims of
wage-and-hour violations merely by establishing that
they are religious institutions and their employees are
“ministers.” Instead, to avoid claims of wage-and-hour
violations like those alleged in this case, a religious
employer must demonstrate that applying the wageand-hour laws to its ministers violates either the Free
Exercise Clause or the Establishment Clause. (See,
e.g., Bollard, supra, 196 F.3d at pp. 945-950.) The
Temple has made no such showing in this case.
EDMON, P. J.

App-31
Appendix D
SUPERIOR COURT OF CALIFORNIA
COUNTY OF LOS ANGELES
________________
No. BC520278
________________
JULIE SU,
Plaintiff,

v.

STEPHEN S. WISE TEMPLE,
Defendant.
________________
Filed: Jan. 12, 2016
________________
TENTATIVE RULING ON MOTION FOR
SUMMARY JUDGEMENT
________________
T/R: THE MOTION FOR SUMMARY JUDGMENT
IS GRANTED. THE MOTION FOR SUMMARY
ADJUDICATION IS MOOT.
DEFENDANT TO NOTICE
The Court considers
opposition, and reply

the

moving

papers,

REQUEST FOR JUDICIAL NOTICE
The Court GRANTS Defendant’s request for
judicial notice of filings made in this action. (RJN
Exhs., 1-3.)

App-32
EVIDENTIARY OBJECTIONS
Defendant’s Evidentiary Objections to the Declaration
of Sylvia Anneliese Rouss
(1) Sustained
(2) Sustained
(3) Sustained
(4) Overruled
Defendant’s Evidentiary Objections to the Declaration
of Alisa McKinney
(1) Sustained
ANALYSIS
A party may move for summary judgment “if it is
contended that the action has no merit or that there is
no defense to the action or proceeding.” (CCP
§ 437c(a).) A motion for summary adjudication may be
made by itself or as an alternative to a motion for
summary judgment and shall proceed in all
procedural respects as a motion for summary
judgment. (CCP § 437c(f)(2).) The moving party bears
an initial burden of production to make a prima facie
showing of the nonexistence of any triable issue of
material fact, and if he does so, the burden shifts to
the opposing party to make a prima facie showing of
the existence of a triable issue of material fact.
(Aguilar v. Atlantic Richfield Co. (2001) 25 Cal.4th
826, 850-51 [citations omitted].)
Plaintiff Julie Su, State Labor Commissioner
(“Plaintiff’), brings this action on behalf of the State of
California asserting causes of action for violations of
the Labor Code. Defendant Stephen S. Wise Temple
(“Defendant”) is a non-profit religious corporation

App-33
engaged in the operation of an early childhood center.
As set forth in the complaint, Plaintiff alleges that
Defendant has failed to provide its Early Childhood
Center (“ECC”) teachers the opportunity to take dutyfree meal periods as required by law. In the MSJ,
Defendant contends that the ministerial exception,
rooted in the First Amendment, acts as a complete bar
to Plaintiff’s claims. In opposition, Plaintiff contends
that the First Amendment does not preclude the
enforcement of facially neutral labor regulations for
employees of religious organizations, and that triable
issues of fact exist as to whether the ECC teachers
employed by Defendant qualify as ministers within
the meaning of the ministerial exception.
A. Application of Ministerial Exception to
Labor Regulations
The ministerial exception was most recently
recognized by the Supreme Court in Hosanna-Tabor
Evangelical Lutheran Church and School v. E.E.O.C.
(2012) 132 S. Ct. 694. The Court held that “there is a
ministerial exception grounded in the Religion
Clauses of the First Amendment.” (Id. at 707.)
However, this holding was in the context of an
employment discrimination suit. In Alcazar v.
Corporation of the Catholic Archbishop of Seattle (9th
Cir. 2010) 627 F.3d 1288, the 9th Circuit applied the
ministerial exception to a plaintiff’s wage and hour
claims. The 7th Circuit and 4th Circuit have also
applied the ministerial exception to wage and hour
claims. (See Schleicher v. Salvation Army (7th Cir.
2008) 518 F.3d 472 [applying exception to Fair Labor
Standards Act claims]; Shaliehsabou v. Hebrew Home

App-34
of Greater Washington, Inc. (4th Cir. 2004) 363 F.3d
299 [same].)
In Werft v. Desert Southwest Annual Conference of
United Methodist Church (9th Cir. 2004) 377 F.3d
1099, 1103, the 9th Circuit held that “[t]he ministerial
exception does not apply solely to the hiring and firing
of ministers, but also relates to the broader
relationship between an organized religious
institution and its clergy.... [A] minister’s working
conditions and the church’s decision regarding
whether or not to accommodate a minister’s disability,
are a part of the minister’s employment relationship
with the church.”
Although neither party cites to California
authority that resolves the issue of whether the
ministerial exception applies to wage and hour claims,
based on the authorities discussed above, the Court
sees no reasons why it should not. As explained by the
Supreme Court, “[t]he purpose of the exception is not
to safeguard a church’s decision to fire a minister only
when it is made for a religious reason. The exception
instead ensures that the authority to select and
control who will minister to the faithful—a matter
“strictly ecclesiastical”[]—is the church’s alone.
(Hosanna-Tabor, supra at 709 [citations omitted].)
While Hosanna-Tabor differed in that it involved an
adverse employment action—whereas the case at bar
involves wage and hour violations—applying the
ministerial exception to wage and hour claims would
comport with the purposes of the exception as
articulated by the Supreme Court and 9th Circuit.
Wage and hour regulations affect a minister’s working
conditions, and therefore implicate the relationship

App-35
between the religious institution and its clergy.
Recognizing the ministerial exception as to wage and
hour claims allows the religious organization to “select
and control” its ministers.
Despite Plaintiff’s contentions, Defendant is not
required to show that the labor regulations at issue
burden its religious beliefs. “[T]he ministerial
relationship lies so close to the heart of the church that
it would offend the Free Exercise Clause simply to
require the church to articulate a religious
justification for its personnel decisions.” (Bollard,
supra at 946.) Based on the foregoing, the Court finds
that the ministerial exception applies to wage and
hour claims. The inquiry now turns to whether the
ECC teachers employed by Defendant qualify as
“ministers” within the meaning of the exception.
B. Whether Defendant’s
Qualify as “Ministers”

ECC

Teachers

“[T]he ministerial exception is not limited to the
head of a religious congregation.” (Hosanna-Tabor,
supra at 707.) In Henry v. Red Hill Evangelical
Lutheran Church of Tustin (2011) 201 Cal.App.4th
1041, the court found that the ministerial exception
applied to a pre-school teacher because she taught
religion and spread the faith. In reaching this
conclusion, the court noted several facts, including
that the teacher led the students in prayer at the
beginning and end of each day and before meals; the
classes and their teachers attended chapel weekly; the
teacher read Bible stories to the classes and lead
chapel up to four times a year; although the class
subjects taught were mainly secular, the teacher
“regularly taught religion” in her class; the teacher

App-36
participated in weekly devotions with the staff and
prayed with each other; when the need to discipline a
student arose, the teacher relied on themes from bible
stories or a teaching of Christianity; and the teacher
would conduct weekly tours for parents of applicants
and would assure the parents of the schools Christian
atmosphere. (Id. at 1054-55.) The court noted that
while the teacher “may not be an intermediary
between a church and its congregation,” the teacher’s
position as a pre-school teacher and her duties therein
served a ministerial function. (Ibid.)
Plaintiff contends that there are triable issues as
to whether the ECC preschool teachers are
“ministers.” The Court disagrees. Of the sixty facts set
forth by Defendant, Plaintiff disputes only seven. It is
undisputed that the ECC fulfills a religious obligation
of the Temple; ECC teachers further the Temple’s
mission and implement Judaic curriculum; ECC
teachers teach children about Jewish religious
holidays; ECC teachers participate in weekly Shabbat
services; ECC teachers teach student to say the
Jewish grace blessing before each meal and snack;
ECC teachers instruct children in saying the Shema
prayer and Oseh Shalom, a prayer for peace; teaching
children about religious practices, holidays, and
rituals fulfills religious commandments; ECC teachers
help transmit Judaism to future generations, Judaism
does not preclude a non-Jew from teaching the Jewish
religion; early Jewish childhood education impacts not
only the child, but the Jewish identity of the child’s
parents and family; upon a child’s completion of the
ECC program, the majority of families continue their
children’s Jewish education at the Temple’s schools;
and teaching music, singing, and dance to students

App-37
fulfills a religious obligation and Biblical directive.
(UMF 4, 11, 18-28, 31, 33, 36-44, 47-49, 53, 55, and
59.) Under these facts, a reasonable trier of fact could
not conclude that ECC teachers do not serve a
ministerial function. Although ECC teachers teach
secular subjects, they also teach religion, spread the
faith, and serve to further the purposes of the Temple.
Plaintiff submits evidence that ECC teachers do
not lead Shabbat prayers, and do not instruct children
in saying the Shema prayer or teach Oseh Shalom.
(UMF 29-30, 42-43.) Plaintiff also submits evidence
that the primary purpose of the ECC is secular
education, the ECC hires teachers with no knowledge
of Judaism, the ECC does not require teachers to
adhere to any religious theology, and ECC teachers do
not hold themselves out as ministers nor are they
primarily engaged in the spiritual and pastoral
mission of the Temple. (UMF 51, 56, 58; PAF 1-11.)
Even viewing this evidence in the light most favorable
to the opposing party, Plaintiff has failed to make a
prima facie showing of the existence of a triable issue
of material fact. Although Plaintiff shows that the
ECC teachers’ role may not be entirely ministerial in
nature, this showing is insufficient to disqualify the
ECC teachers from the ministerial exception. A
“minister” need not be an “intermediary between a
church and its congregation” to qualify for the
ministerial exception. Defendant’s undisputed
evidence clearly establishes that the ECC teachers are
“ministers” within the meaning of the exception.
The motion for summary judgment is GRANTED.
Date: January 12, 2016 [handwritten: signature]
Judge Ernest M. Hiroshige

App-38
Appendix E
SUPERIOR COURT OF CALIFORNIA
COUNTY OF LOS ANGELES
________________
No. BC520278
________________
JULIE SU,
v.

Plaintiff,

STEPHEN S. WISE TEMPLE,
Defendant.
________________
Filed: Mar. 30, 2016
________________
RULING ON MOTION FOR
SUMMARY JUDGEMENT
________________
On January 12, 2016, Defendant Stephen S. Wise
Temple’s (“Defendant”) motion for summary
judgment/adjudication came for hearing before the
Court. The Court took the matter under submission
after oral argument. After further consideration of the
parties’ arguments made at hearing, the Court adopts
its tentative ruling as its final ruling.
The Court tentatively granted the MSJ, finding
that ECC teachers were ‘‘ministers” within the
meaning of the First Amendment’s “ministerial
exception.” In coming to this conclusion, the Court
took into consideration the following undisputed facts:

App-39
the ECC fulfills a religious obligation of the Temple;
ECC teachers further the Temple’s mission and
implement Judaic curriculum; ECC teachers teach
children about Jewish religious holidays; ECC
teachers participate in weekly Shabbat services; ECC
teachers teach students to say the Jewish grace
blessing before each meal and snack; ECC teachers
instruct children in saying the Shema prayer and
Oseh Shalom, a prayer for peace; teaching children
about religious practices, holidays, and rituals fulfills
religious commandments; ECC teachers help transmit
Judaism to future generations, Judaism does not
preclude a non-Jew from teaching the Jewish religion;
early Jewish childhood education impacts not only the
child, but the Jewish identity of the child’s parents
and family; upon a child’s completion .of the ECC
program, the majority of ·families continue their
children’s Jewish education at the Temple’s schools;
and teaching music, singing, and dance to students
fulfills a religious obligation and Biblical directive.
(UMF 4, 11, 18-28, 31, 33, 36-44, 47-49, 53, 55, and
59.)
At hearing, Plaintiff argued that the Supreme
Court, in Hosanna-Tabor Evangelical Lutheran
Church and School v. E.E.O.C. (2012) 132 S.Ct. 694,
recognized that there are lay teachers and teachers
who are ministers. (Trans. at 5:14-18.) Plaintiff
argued that the ECC teachers in this case spent the
vast majority of their time teaching secular matter,
and that a very small minority of the time was actually
spent introducing the children to religious holidays.
(Id. at 5:10-13.) Plaintiff also pointed to the
declaration of Alisa McKinney, which shows that
religious knowledge was not required to obtain a job

App-40
as an ECC teacher. Plaintiff argued that HosannaTabor “signaled that there is this group of factors that
need to be considered in totality ... and ... that the
tentative ruling is incorrect to the extent that it only
deals with the job duties and not with the issues of the
bona fides of the individuals in question.” (Id. at 9:1722.)
While the Hosanna-Tabor court did consider the
teacher’s
qualifications
and
circumstances
surrounding her employment in addition to her job
duties, the court declined to set forth a test for
determining whether a teacher qualifies as a minister.
The court stated that it was “reluctant … to adopt a
rigid formula for deciding when an employee qualifies
as a minister.’’ (Hosanna-Tabor, supra at 707.)
However, in reversing the Sixth Circuit’s holding, the
court noted that “too much emphasis [was placed] on
[the teacher’s] performance of secular duties. It is true
that her religious duties consumed only 46 minutes of
each workday, and that the rest of her day was
devoted to teaching secular· subjects. The EEOC
regards that as conclusive, contending that any
ministerial exception ‘should be limited to those
employees who perform exclusively religious
functions.’ We cannot accept that view.” (Id. at 70809.) The court concluded that “[t]he interest of society
in the enforcement of employment discrimination
statutes is undoubtedly important. But so too is the
interest of religious groups in choosing who will
preach their beliefs, teach their faith, and carry out
their mission.... The church must be free to choose
those who will guide it on its way.” (Id. at 710.) In his
concurrence, Justice Thomas wrote, “the Religion
Clauses require civil courts to apply the ministerial

App-41
exception and to defer to a religious organization’s
good-faith understanding of who qualifies as its
minister. (Ibid. [Thomas, J., concurring].)
Based on the foregoing, the Court finds that the
ECC teachers were “ministers” within the meaning of
the “ministerial exception.” This is not a case in which
the teachers were deemed “ministers” in name only in
order to avoid liability. Guided by the principles
expressed in Hosanna-Tabor, the Court gives little
weight to the facts that the ECC teachers were tasked
with teaching secular subjects, or that religious
knowledge was not a requirement to be hired. The
undisputed evidence shows that the ECC teachers
performed many religious function. Notably, Plaintiff
disputes only seven of the sixty facts set forth by
Defendant in its separate statement. The undisputed
facts discussed in the second paragraph of this ruling
establish that ECC teacher were “ministers.”
Date: March 30, 2016

[handwritten: signature]
Judge Ernest M. Hiroshige

